No. ________________

In The Supreme Court of the United States

JEROME WILLIAMS,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.

On Petition for a Writ of Certiorari to the
United States Court of Appeals for the Eleventh Circuit

APPENDIX

KEVIN L. BUTLER
Federal Public Defender
Northern District of Alabama
ALLISON CASE
Assistant Federal Defender
TOBIE J. SMITH*
Appellate Attorney
*Counsel of Record
505 20th Street North
Suite 1425
Birmingham, Alabama 35203
(205) 208-7170
Counsel for Petitioner

APPENDIX A

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 1 of 27

1a

[PUBLISH]

IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 19-10308
________________________
D.C. Docket Nos. 2:16-cv-08101-CLS,
2:97-cr-00377-CLS-RRA-2
JEROME WILLIAMS,
Petitioner-Appellant,
versus
UNITED STATES OF AMERICA,
Respondent-Appellee.
________________________
Appeal from the United States District Court
for the Northern District of Alabama
________________________
(January 13, 2021)
Before JORDAN, LAGOA, and BRASHER, Circuit Judges.
BRASHER, Circuit Judge:
This appeal comes to us from a post-judgment challenge to a 1998 federal
sentence. The question on appeal is under what circumstances the legal landscape at

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 2 of 27

2a

the time of a defendant’s sentencing can establish, as a matter of historical fact, that
the sentencing court relied on the unconstitutionally vague residual clause of the
Armed Career Criminals Act (“ACCA”) to classify a prior felony as violent and, so,
to increase the defendant’s statutory sentencing range. After the Supreme Court
ruled that the ACCA’s residual clause is unconstitutionally vague and held that its
ruling was retroactive to collateral review, Jerome Williams filed a “Johnson
motion” challenging his sentence for bank robbery. He argued that case law at the
time of his sentencing established that the sentencing court relied on the residual
clause alone to increase his statutory range of sentences and not on one of the
ACCA’s other clauses left unaffected by the Supreme Court’s ruling. The district
court denied this motion, concluding that Williams had not met his burden of proof
to establish that the unconstitutionally vague residual clause affected his sentence.
We affirm.
I.
In 1998, Williams was convicted of robbing a bank while carrying a firearm.
The ACCA provides a statutory sentencing enhancement for certain previously
convicted felons who use a firearm. 18 U.S.C. § 924(e)(1). To qualify for this
enhancement, a defendant must have committed three previous “violent” felonies as
defined by one of the ACCA’s clauses. The sentencing court found that Williams
had committed the following “violent” felonies: Kentucky first-degree robbery,

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 3 of 27

3a

Georgia armed robbery, and federal kidnapping. As to the federal kidnapping
conviction, the presentence report recounted that Williams “accosted” a man at a
Kentucky motel, threatened him with a revolver, and demanded a ride to Tennessee.
When they reached Knoxville, the victim leapt from the car and signaled a police
officer, who promptly arrested Williams. Williams was convicted of violating 18
U.S.C. § 1201(a)(1), which provides that a person commits a federal kidnapping
when he “unlawfully seizes, confines, inveigles, decoys, kidnaps, abducts, or carries
away and holds for ransom or reward or otherwise any person, except in the case of
a minor by the parent thereof,” and “the person is willfully transported in interstate
or foreign commerce.”
At the sentencing hearing on his bank robbery conviction, Williams did not
object to the application of the ACCA, and the sentencing court never addressed why
any of his previous felonies counted as violent. Applying the ACCA, the sentencing
court sentenced Williams to concurrent terms of 300 months of imprisonment for
bank robbery and 327 months for possession of a firearm by a convicted felon, with
a consecutive term of 60 months for carrying a firearm during and in relation to a
crime of violence.
After serving about 220 months of his sentence, Williams moved for leave to
file his third motion under 28 U.S.C. § 2255. We granted him leave, and he filed the
motion underlying this appeal. He did not dispute that the two robbery convictions

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 4 of 27

4a

were violent felonies, but he did argue that the sentencing court had improperly
found his federal kidnapping conviction to be a “violent felony” under the “residual
clause” of the ACCA. Because the Supreme Court had held this clause
unconstitutional and had made its ruling retroactive in Johnson v. United States, 576
U.S. 591 (2015), and Welch v. United States, 136 S.Ct. 1257 (2016), respectively,
Williams argued that he was due to be resentenced. Williams did not support his
motion with case-specific evidence that the “residual clause” affected his sentence.
Instead, he argued only that case law at the time of his sentencing established that
more likely than not the sentencing court relied on the residual clause.
After reviewing the then-existing legal landscape, the district court denied
Williams’s motion. The same judge who had sentenced Williams nearly two decades
ago found that the sentencing record failed to illuminate which clause of the ACCA
he had relied on to qualify the kidnapping conviction as a violent felony. As for the
then-existing legal landscape, the district court concluded it was, at best, unclear
which clause or clauses the sentencing court would have relied on. Instead,
persuasive authority supported a sentence under either or both the residual and
elements clauses. Because Williams did not prove the sentencing court more likely
than not relied on only the residual clause to enhance his sentence, the district court
denied his motion.

4

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 5 of 27

5a

We granted Williams a certificate of appealability on the question whether the
district court erred in concluding that he had not made the requisite showing under
Beeman v. United States, 871 F.3d 1215 (11th Cir. 2017), as to his kidnapping
conviction under 18 U.S.C. § 1201. We have jurisdiction to decide this question
under 28 U.S.C. § 1291 and 28 U.S.C. § 2253.
II.
This appeal raises a mixed question of law and fact. Mixed questions of law
and fact are “questions in which the historical facts are admitted or established, the
rule of law is undisputed, and the issue is whether the facts satisfy the statutory
standard, or to put it another way, whether the rule of law as applied to the
established facts is or is not violated.” Lincoln v. Bd. of Regents of Univ. Sys. of Ga.,
697 F.2d 928, 940 n.15 (11th Cir. 1983) (quoting Pullman-Standard v. Swint, 456
U.S. 273, 289 n.19 (1982)). Our review of a mixed question of law and fact depends
“on whether answering it entails primarily legal or factual work.” U.S. Bank N.A. v.
Village at Lakeridge, LLC, 138 S.Ct. 960, 967 (2018). We apply de novo review
when the question requires a court to “expound on the law, particularly by
amplifying or elaborating on a broad legal standard.” Id. We apply clear error review
when the question requires a court to “marshal and weigh evidence, make credibility
judgments, and otherwise address . . . ‘multifarious, fleeting, special, narrow facts

5

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 6 of 27

6a

that utterly resist generalization.’” Id. (quoting Pierce v. Underwood, 487 U.S. 552,
561–62 (1988)).
A district court may resolve a Johnson motion by making a finding of
historical fact that the sentencing court did or did not rely on a specific clause of the
ACCA. See Beeman, 871 F.3d at 1224 n.5 (“What we must determine is a historical
fact: was [the defendant] in 2009 sentenced solely per the residual clause?”); United
States v. Pickett, 916 F.3d 960, 967 (11th Cir. 2019) (vacating and remanding
because “[t]he district court obviously is in a better position than we are to evaluate
what likely happened . . . , especially since we are remanding this case to the very
judge who initially sentenced [the defendant]”). We would review such a finding for
clear error. But because Williams’s Johnson motion relies exclusively on the state
of the law in 1998 and the district court resolved it by reference to legal principles
alone, the issue before this Court is a mixed question of law and fact that entails
primarily legal work. Accordingly, we review this mixed question of law and fact
de novo. Our decision to apply a de novo standard of review under the circumstances
of this case is consistent with authority from other circuits. See Dimott v. United
States, 881 F.3d 232, 236 (1st Cir. 2018) (“We review de novo the district courts’
denials of [the defendants’] habeas petitions” under Johnson.); Golinveaux v. United
States, 915 F.3d 564, 568 (8th Cir. 2019) (“Determining the legal environment
requires a ‘legal conclusion’ about the controlling law at the time of sentencing,”
6

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 7 of 27

7a

which the court reviews de novo.); United States v. Copeland, 921 F.3d 1233, 1242
(10th Cir. 2019) (“our review of a district court’s denial of a [Section] 2255 Johnson
claim is de novo[,] unless the court conducted an evidentiary hearing from which it
made findings”).
III.
Before we address the specifics of Williams’s argument, a little background
is necessary. The ACCA defines the kind of crimes that count as a “violent felony”
in three ways. First, a felony may qualify as violent under the elements clause of the
ACCA because it “has as an element the use, attempted use, or threatened use of
physical force against the person of another.” 18 U.S.C. § 924(e)(2)(B)(i). Second,
a felony may qualify as violent under the enumerated-offenses clause of the ACCA
because it is for “burglary, arson, or extortion, [or] involves use of explosives.” Id.
§ 924(e)(2)(B)(ii). Third, a felony may qualify as violent under the residual clause
of the ACCA because it “otherwise involves conduct that presents a serious potential
risk of physical injury to another.” Id.
The Supreme Court held in Johnson that the residual clause is
unconstitutionally vague such that “imposing an increased sentence under the
residual clause of the Armed Career Criminal Act violates the Constitution's
guarantee of due process.” Johnson, 576 U.S. at 606. But the Court emphasized that
its “decision does not call into question application of the Act to the four enumerated
7

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 8 of 27

8a

offenses, or the remainder of the Act’s definition of a violent felony.” Id. The
Supreme Court made its decision in Johnson retroactive in Welch, which means the
Court’s decision in Johnson applies even to convictions and sentences that have long
been final. Welch, 136 S.Ct. at 1268.
Thus, because of Johnson and Welch, Williams has filed a Section 2255
motion that seeks resentencing nearly two decades after his original sentence was
imposed. Everyone agrees that Williams is due to be resentenced if the sentencing
court relied on the residual clause of the ACCA to classify his federal kidnapping
conviction as “violent.” To that end, Williams must establish that the residual clause
“actually adversely affected the sentence he received” because “more likely than
not[] it was use of the residual clause that led to the sentencing court’s enhancement
of his sentence.” Beeman, 871 F.3d at 1221–22. And the sentencing court must have
relied only on the residual clause in qualifying the felony as violent. Id. at 1221.
Williams’s Johnson claim fails “[i]f it is just as likely that the sentencing court relied
on the elements . . . clause, solely or as an alternative basis for the enhancement.”
Id. at 1222. Williams can prove this historical fact through direct evidence, such as
“comments or findings by the sentencing judge,” or circumstantial evidence, such as
“statements in the PSR” or “the law . . . at the time of sentencing.” Id. at 1224 nn.4–
5.

8

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 9 of 27

9a

Williams argues that more likely than not the sentencing court classified his
federal kidnapping conviction as a violent felony under the residual clause. He
makes two main arguments. First, Williams argues that it is unlikely the sentencing
court relied on any other clause. Everyone agrees that the second clause for
enumerated offenses has no application here, and Williams argues that case law at
the time of his sentencing makes it unlikely the sentencing court relied on the
elements clause. Williams argues that, before he was sentenced in 1998, we had held
that a defendant could be convicted of federal “kidnapping by inveiglement” without
using force as long as the defendant “formed the intent to use forcible action, in the
event his deception failed, to complete the kidnapping.” United States v. Boone, 959
F.2d 1550, 1555, 1557 (11th Cir. 1992); see also United States v. Lewis, 115 F.3d
1531, 1535 (11th Cir. 1997) (listing elements of federal kidnapping). And we had
instructed sentencing courts applying the ACCA at the time to look “only to the
statutory definitions of the prior offense, and not to the particular facts underlying
those convictions” to determine whether the elements clause applied. United States
v. Oliver, 20 F.3d 415, 418 n.4 (11th Cir. 1994) (quoting Taylor v. United States,
495 U.S. 575, 600 (1990)). Because we had recognized in Boone that the statutory
definition of federal kidnapping includes kidnapping accomplished by inveiglement
and because we had instructed lower courts to look at the elements of a statute to
determine whether an offense is “violent” under the ACCA’s elements clause,
9

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 10 of 27

10a

Williams argues that the sentencing court would have erred under our precedents
had it counted his federal kidnapping conviction as violent under the elements
clause. Second, Williams cites to various courts that, at the time of his sentencing,
had held that federal kidnapping was a violent crime under the ACCA’s residual
clause. E.g., United States v. Phelps, 17 F.3d 1334, 1342 (10th Cir. 1994). Thus, he
suggests that the sentencing court would more likely than not have made the same
decision.
The government’s response is three-fold. First, it argues that Williams is
reading too much into Boone and Lewis, which concerned jury instructions and a
guilty plea, not sentencing. Second, the government cites persuasive authority to
argue that the sentencing court just as likely used the elements clause to categorize
the federal kidnapping conviction as “violent.” The Second Circuit, for example, had
relied on the elements clause to declare a federal kidnapping conviction to be
“violent,” reasoning it “cannot be questioned” that “the crime of kidnapping involves
the threatened use of physical force against a person and is thus a crime of violence
under this statute.” United States v. Patino, 962 F.2d 263, 267 (2d Cir. 1992). The
government also points out that we had held that federal kidnapping is a crime of
violence under the elements clause of an identically worded Sentencing Guidelines
provision. United States v. Salemi, 26 F.3d 1084, 1087 (11th Cir. 1994). Third, and
in any event, the government argues that Williams has not met his burden of proof
10

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 11 of 27

11a

merely by showing the elements clause would not likely have justified the sentence;
he must show that the residual clause alone led to the sentencing court’s
enhancement as a matter of historical fact. Case law that merely suggests the
elements clause would not have properly applied in a hypothetical case, the
government argues, is not enough to establish that the residual clause did apply in
this case.
We agree with the government. Because no case-specific evidence exists to
suggest which clause the sentencing court relied on, the only available evidence is
the state of the law at the time of Williams’s sentencing. But this category of
circumstantial evidence tells us very little.
In 1998, our most on-point precedent was Salemi. There, we reversed a district
court when it held that federal kidnapping was not a crime of violence under the
elements clause of a sentencing guideline. Salemi, 26 F.3d at 1087. At the time, the
Sentencing Guidelines were “binding on judges” and carried “the force and effect of
laws.” United States v. Booker, 543 U.S. 220, 234 (2005). And the guideline in
Salemi, like the ACCA, provided that a crime would count as violent if it had as “an
element the use, attempted use, or threatened use of physical force.” 26 F.3d at 1087
(quoting U.S.S.G. § 4B1.2)(internal quotations marks omitted). We explained that
the Sentencing Commission had “recognized that kidnapping inherently involves the

11

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 12 of 27

12a

threat of violence.” Id. And we held that “[k]idnapping is a violent crime” under this
elements clause. Id.
In response to Salemi, Williams cites Boone and Lewis. These authorities
discuss the statutory elements of federal kidnapping, and they do not include “force”
as one of those elements. But neither Boone nor Lewis affirmed a conviction for
nonforcible kidnapping or categorized federal kidnapping for sentencing purposes.
In Boone, the defendant was convicted of kidnapping when he tricked his victim into
crossing state lines “to murder and rob him.” 959 F.2d at 1556. The trial judge had
instructed the jury that tricking someone to cross “state lines is … in and of itself
conduct proscribed by the federal kidnapping statute.” Id. at 1555. We reversed. We
held that “a kidnapping by inveiglement requires the alleged kidnapper to have
formed the intent to use forcible action” to carry out the kidnapping. Id. at 1557. In
Lewis, we affirmed a guilty plea for federal kidnapping where the defendant “beat
[the victim] into unconsciousness.” 115 F.3d at 1533. Even though the defendant
said that he did not intend to take his victim across state lines, we held his plea to be
knowing and voluntary. Id. at 1535-36.
Based on these precedents and the equally ambiguous precedents from our
sister circuits, we cannot say that the sentencing judge did not rely in part on the
elements clause when he sentenced Williams. A sentencing judge looking at the
legal landscape in 1998 could have thought that he would be reversed like the
12

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 13 of 27

13a

sentencing judge in Salemi if he held that federal kidnapping did not satisfy the
ACCA’s identical elements clause. Or he could have treated the issue as one of first
impression, held that there was no force element to a federal kidnapping, and relied
exclusively on the residual clause. Had a hypothetical sentencing court confronted
this question in the 1990s, we cannot say how it would have answered it. Thus, it is
doubly difficult for us to conclude that the particular sentencing court in Williams’s
case—as a matter of historical fact—answered it by not applying the elements
clause.
We previously faced a similarly uncertain legal landscape in Pickett, where
the defendant argued that his felony offense qualified under the residual clause and
it was “uncertain at best” whether it also qualified under the elements clause. 916
F.3d at 964. We held that such a motion fails if it was “just as likely that the
sentencing court relied on the elements or enumerated offenses clause, solely or as
an alternative basis for the enhancement.” Id. at 963 (quoting Beeman, 871 F.3d at
1222). Even if the residual clause were the “most obvious clause under which the
convictions qualified,” it “does not necessarily mean even by implication that the
elements clause could not also have been relied on.” Id. at 965.
In Pickett, the defendant relied on two opinions from this Court, neither of
which was binding. The first was an unpublished table decision stating that the
offense at issue “did not categorically satisfy the elements clause.” Id. (citing United
13

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 14 of 27

14a

States v. Rozier, 37 F. App’x 499 (11th Cir. 2002)). The second was an unpublished
opinion holding that the offense at issue was not always a violent felony—based
only on another circuit’s holding that the offense did not always satisfy the elements
clause. Id. (citing United States v. Wright, 181 F. App’x 914 (11th Cir. 2006)). We
explained that, legally, “[n]othing in this collection of cases amounts to binding
precedent” and that, practically, it was doubtful the district court even saw the table
decision. Id. The government in turn relied on dicta from this Court that an offense
was a crime of violence under an analogous elements clause in the Sentencing
Guidelines. Id. at 965–66. After reviewing these decisions, we found they offered a
“very weak circumstantial read” of the sentencing judge’s thoughts, and we were
“unable to conclude that it is more likely than not that the district court relied only on
the residual clause.” Id. at 966. “[A]bsent clear precedent showing that the court
could only have used one clause or another,” merely persuasive authority on the state
of the law is insufficient to determine the sentencing court’s reasoning. Id. at 964.
The legal landscape here is as uncertain as it was in Pickett. As in Pickett, we
conclude that, “[f]aced with this uncertain precedential landscape,” the sentencing
court “likely would have quickly determined” that Williams’s federal kidnapping
conviction “qualified under the residual clause.” Id. at 966. “[B]ut we do not know
what else it might have thought.” Id. These authorities do not establish “either what
the court thought about the elements clause—or even whether the court thought
14

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 15 of 27

15a

about it at all.” Id. Of course, “[w]ith the residual clause plainly available, the district
court would not have needed to consider the elements clause.” Id. But that is beside
the point. As a matter of historical fact, “we genuinely do not know what actually
happened.” Id.
The otherwise smooth application of Pickett to this case does have one
wrinkle. Unlike in Pickett, Williams argues that if the sentencing court had relied on
the elements clause, it would have been an error under binding precedents from this
Court, namely our view of the federal kidnapping statute and our categorical
approach to the elements clause. Our dissenting colleague agrees with Williams. He
says that Pickett is “easily distinguishable” because here “Supreme Court and
Eleventh Circuit precedent required the use of the categorical approach under the
elements clause of the ACCA (Taylor and Oliver), and Eleventh Circuit precedent
held that federal kidnapping could be accomplished without the use, attempted use,
or threatened use of physical force (Boone and Lewis).” Dissenting Op. at 24.
We are unpersuaded that our 1990s case law meaningfully distinguishes this
case from Pickett. This is so for two reasons.
First, Williams and our dissenting colleague too quickly discount our decision
in Salemi, in which we held that federal kidnapping was violent under the elements
clause of an identically worded sentencing guideline. By clouding our case law on
this point, Salemi greatly diminishes the relevance of Boone and Lewis. To be
15

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 16 of 27

16a

certain, Salemi is distinguishable because it concerned a sentencing guideline, not a
statute. It is possible—maybe even highly likely—that we would hold today that
federal kidnapping does not satisfy the elements clause of the ACCA. See United
States v. Gillis, 938 F.3d 1181, 1210 (11th Cir. 2019) (holding, as a matter of first
impression, that federal kidnapping is not a crime of violence under 18 U.S.C. §
373(a)). But we had not decided this issue in 1998. And the question before us now
is not how a hypothetical sentencing court should have ruled on a question that was
never presented. The question under Pickett is what the sentencing court could have
done, as a matter of historical fact, when it sentenced Williams. And, in part because
of Salemi, case law provides no satisfactory answer in Williams’s favor.
Second, because Williams and our dissenting colleague’s approach requires
carefully parsing circa-1998 precedents, it necessarily sheds too little light on the
historical question at issue here. Absent authority that would have compelled a
particular result in 1998, Williams cannot meet his burden of proof through case law
alone. The question for us is, as a matter of historical fact, on which clause did the
sentencing court hang Williams’s sentence? Because there is no clear precedent on
point, we believe the answer is simple, if unsatisfying: we do not know. The
sentencing court in 1998 had read an unobjected-to presentence report that described
a violent kidnapping at gunpoint, no one objected to the application of the ACCA at
the time, and there were authorities from this Court and others that supported the
16

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 17 of 27

17a

notion that kidnapping is an inherently violent offense. Against this backdrop, we
would merely be guessing if we were to say that the sentencing court had relied on
the residual clause alone.
Williams argues that this result is unfair and arbitrary, but we disagree. Our
case law in this area “reflects longstanding and fundamental interests in finality.”
Beeman, 871 F.3d at 1223. Williams has raised a very particular kind of claim—a
retroactive claim about an unconstitutionally vague sentencing enhancement. At his
sentencing two decades ago, Williams could have raised a constitutional claim or
litigated the statutory issue of whether the elements clause could justify the
enhancement. But, only now, after more than eighteen years, has Williams
challenged whether his kidnapping conviction counts as a violent felony. For
Williams’s collateral attack to succeed, he needs to establish that the sentencing
court committed a specific kind of error, a retroactive constitutional one. It is not
enough that the sentencing court might have committed a statutory error—the
application of the elements clause in a case that did not warrant it—because that
error would not be retroactive on collateral review.
Williams also argues that, in requiring him to come forward with “clear
precedent showing that the court could only have used one clause or another,”
Pickett, 916 F.3d at 964, we are applying something higher than a more-likely-thannot standard. Again, we disagree. The root problem here is that Williams is relying
17

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 18 of 27

18a

on circumstantial evidence which, when unclear, has little to no bearing on the
ultimate issue. As a hypothetical, imagine a jury trying to determine who was at fault
in a car accident. As in this case, the sole evidence is circumstantial—a local
business’s security footage, focused not on the intersection where the accident
occurred, but on the street a few yards away. If the footage shows the traffic suddenly
stop shortly before the time of the accident, the jury might be persuaded that the cars
had stopped at a red light that the offending car ran, causing the accident. If the
footage shows an empty street or stalled rush hour traffic, the circumstantial
evidence does not tell the factfinder much about the disputed issue at all. The law at
the time of Williams’s sentencing is more like these latter examples than the former.
Because the authorities that Williams cites are not clear, they fail to shed light on
what the sentencing court did as a matter of historical fact.
We have held that “[i]t is no more arbitrary to have a movant lose in a
[Section] 2255 proceeding because of a silent record than to have the [g]overnment
lose because of one.” Beeman, 871 F.3d at 1224. When a case turns on an issue of
historical fact, the available evidence, whether traffic footage or the legal landscape
of yesteryear, must satisfy the burden of proof on the disputed issue. If the evidence
is silent or in equipoise, then the party with the burden fails. So it is here.
IV.

18

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 19 of 27

19a

Because the district court did not err in denying Williams’s motion, the district
court’s judgment is AFFIRMED.

19

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 20 of 27

20a

JORDAN, Circuit Judge, dissenting:
I agree with my colleagues in the majority—and with the Eighth and Tenth
Circuits—that de novo review is appropriate because we, like the district court, are
only reviewing the legal landscape in 1998 to determine whether the residual clause
was used to classify Mr. Williams’ federal kidnapping conviction as a violent felony
under the ACCA, 18 U.S.C. § 924(e). See Golinveaux v. United States, 915 F.3d
564, 568 (8th Cir. 2019); United States v. Driscoll, 892 F.3d 1127, 1132–33 (10th
Cir. 2017). But that plenary review leads me to a different conclusion—that Mr.
Williams has proven, by a preponderance of the evidence, that the district court
enhanced his sentence in reliance only on the ACCA’s residual clause. With respect,
therefore, I dissent.
I
Mr. Williams was convicted in 1998 of, among other crimes, possession of a
firearm by a convicted felon. At his sentencing, the district court found that Mr.
Williams had previously committed three violent felonies as defined in the ACCA,
and therefore enhanced his sentence. See 18 U.S.C. § 924(e).
One of those prior felonies was federal kidnapping, in violation of 18 U.S.C.
§ 1201(a)(1). The presentence investigation report was silent as to which ACCA
clause made the federal kidnapping conviction a violent felony. At sentencing,

20

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 21 of 27

21a

neither the parties nor the district court discussed or identified the ACCA clause
under which federal kidnapping constituted a violent felony.
After Mr. Williams was sentenced, the Supreme Court struck down the
ACCA’s residual clause in Johnson v. United States, 576 U.S. 591 (2015), and later
made that ruling retroactive in Welch v. United States, 136 S. Ct. 1257 (2016). So,
if Mr. Williams can establish that the district court classified his federal kidnapping
conviction as a violent felony under only the ACCA’s unconstitutional residual
clause, he can have his sentence vacated and be resentenced. See 28 U.S.C. § 2255.
II
For Mr. Williams to succeed, he must show, by a preponderance of evidence,
that the district court relied only on the ACCA’s residual clause with respect to his
federal kidnapping conviction. See Beeman v. United States, 871 F.3d 1215, 1221–
22 (11th Cir. 2017). The preponderance of evidence standard does not require Mr.
Williams to make that showing to a high degree of certainty. Instead, “the
preponderance-of-the-evidence standard results in a roughly equal allocation of the
risk of error between litigants.” Grogan v. Garner, 498 U.S. 279, 286 (1991).
Accordingly, Mr. Williams meets his evidentiary burden so long as the evidence
“tip[s] the scales just one little bit in [his] favor.” Blossom v. CSX Transp., Inc., 13
F.3d 1477, 1479 (11th Cir. 1994).

21

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 22 of 27

22a

To meet that burden, Mr. Williams can rely on direct evidence. Or he can rely
on circumstantial evidence, such as the legal landscape at the time of sentencing. See
Beeman, 871 F.3d at 1224 nn.4–5. Circumstantial evidence is “[e]vidence based on
inference.” Black’s Law Dictionary 698 (11th ed. 2019). See also United States v.
Henderson, 693 F.2d 1028, 1031 (11th Cir. 1982). The tests for the sufficiency of
direct and circumstantial evidence are identical. See United States v. Doe, 661 F.3d
550, 560 (11th Cir. 2011).
III
Because the record in Mr. Williams’ criminal case does not indicate which of
the ACCA’s clauses the district court relied on to classify his federal kidnapping
conviction as a violent felony, the parties and the majority properly focus on the
legal landscape at the time of his sentencing. Based on that legal landscape, I believe
that it is more likely than not that the district court relied only on the ACCA’s
residual clause to classify Mr. Williams’ federal kidnapping conviction as a violent
felony.
At the time of Mr. Williams’ 1998 sentencing, we (and the Supreme Court)
had instructed district courts to employ a categorical approach to determine whether
an offense constituted a violent felony under the ACCA’s elements clause, i.e., by
“looking only to the statutory definitions of the prior offense.” United States v.
Oliver, 20 F.3d 415, 418 (11th Cir. 1994) (quoting Taylor v. United States, 495 U.S.
22

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 23 of 27

23a

575 (1990)). See also United States v. Gonzalez-Lopez, 911 F.2d 542, 546 (11th Cir.
1990). As a result, for federal kidnapping to constitute a violent felony under the
ACCA’s elements clause, its statutory elements must have required the use,
attempted use, or threatened use of physical force. See 18 U.S.C. § 924(e)(2)(B)(i).
We had also ruled by 1998 that federal kidnapping did not require the use,
attempted use, or threatened use of physical force. For example, in United States v.
Boone, 959 F.2d 1550, 1555 (11th Cir. 1992), we held that federal kidnapping could
be accomplished through inveiglement (i.e., seduction) or decoy given the text of 18
U.S.C. § 1201(a)(1).
The majority argues that in Boone we held that “a kidnapping by inveiglement
requires the alleged kidnapper to have formed the intent to use forcible action.”
Boone 959 F.2d at 1558. But the suggestion that Boone is unclear as it relates to an
elements clause analysis fails for two reasons. First, the “force” discussed in Boone
can be either psychological or physical, see id., while the ACCA’s elements clause
requires that physical force be an essential element of the predicate offense. Second,
what we held in Boone was that kidnapping by inveiglement or deception requires
the kidnapper to have subjectively intended to employ force (psychological or
physical) if the inveiglement or deception were to fail. See id. at 1555–58. Logically,
the victim need not be aware of the kidnapper’s subjective intent to employ force if
the victim were to discover that he is being inveigled or deceived. See id. at 1556. In
23

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 24 of 27

24a

short, Boone establishes that federal kidnapping does not require the use, attempted
use, or threatened use of physical force.
Additionally, in United States v. Lewis, 115 F.3d 1531, 1535 (11th Cir. 1997),
we identified the elements of federal kidnapping under § 1201(a)(1) without any
reference to physical force. The majority notes that in Lewis the defendant used
physical force against the victim to effect the kidnapping. But, as everyone agrees,
in 1998 courts were required to use the categorical approach to determine whether
an offense constituted a violent felony under the ACCA’s elements clause. Thus,
what is relevant about Lewis is its statement on the elements of federal kidnapping.
Indeed, it would have been reversible error for the Lewis panel (or for this court in
any other case) to have relied on the underlying offense conduct when employing
the categorical approach.
In the Eleventh Circuit, therefore, a district court in 1998 could not have
properly used the ACCA’s elements clause to classify federal kidnapping as a violent
felony. After all, district courts are “presumed to know the law and apply it in making
their decisions.” Walden v. Arizona, 497 U.S. 639, 653 (1990). Accord United States
v. $242,484.00, 389 F.3d 1149, 1155 (11th Cir. 2004) (en banc) (noting the
“presumption that a judge knows and correctly applied the law”). Stated differently,
a district court in the Eleventh Circuit in 1998 could only have used the ACCA’s
residual clause to characterize federal kidnapping as a violent felony. Indeed, before
24

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 25 of 27

25a

1998 the Ninth and Tenth Circuits had applied the categorical approach and ruled
that similar state kidnapping statutes—statutes which permitted kidnapping to be
carried out without force—constituted violent felonies only under the ACCA’s
residual clause. See United States v. Sherbondy, 865 F.2d 996, 1009 (9th Cir. 1988);
United States v. Phelps, 17 F.3d 1334, 1342 (10th Cir. 1994).
To recap, as things stood in 1998, Supreme Court and Eleventh Circuit
precedent required the use of the categorical approach under the elements clause of
the ACCA (Taylor and Oliver), and Eleventh Circuit precedent held that federal
kidnapping could be accomplished without the use, attempted use, or threatened use
of physical force (Boone and Lewis). Those cases render United States v. Pickett,
916 F.3d 960, 965–66 (11th Cir. 2019), where the relevant legal landscape was void
of binding precedent, easily distinguishable.
IV
The majority reasons that United States v. Salemi, 26 F.3d 1084, 1087 (11th
Cir. 1994), which held that federal kidnapping was a violent crime under U.S.S.G.
§ 4B1.2, “diminished the relevance of Boone.” I disagree for a couple of reasons.
First, Salemi relied on Application Note 2 to § 4B1.2, which “include[d]
kidnapping in its listing of crimes that are crimes of violence.” Salemi, 26 F.3d at
1087. Salemi seems to have been correctly decided given that commentary in the
Sentencing Guidelines Manual that “interprets or explains a guideline is
25

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 26 of 27

26a

authoritative unless it violates the Constitution or a federal statute, or is inconsistent
with, or a plainly erroneous reading of, that guideline.” Stinson v. United States, 508
U.S. 36, 38 (1993). But there is (and was) no such binding commentary to the
ACCA’s elements clause. Salemi, therefore, cannot cast doubt on Boone.
Second, Salemi—a guideline decision—could not overrule Boone, an earlier
opinion explaining how federal kidnapping could be accomplished without the use,
attempted use, or threatened use of force. See United States v. Steele, 147 F.3d 1316,
1318 (11th Cir. 1998) (en banc) (explaining the prior panel precedent rule). And to
the extent that Salemi may have caused some confusion, Lewis later confirmed that
federal kidnapping did not have as an element the use, attempted use, or threatened
use of force. Boone and Lewis were binding precedent in 1998 and remained more
relevant to an elements clause analysis than Salemi.
In my view, it is more likely than not that the district court relied only on the
residual clause in Mr. Williams’ case to conclude that federal kidnapping was a
violent felony under the ACCA. Given the legal landscape in 1998, that is an easier
inference to make than the alternatives—that the district court (i) did not apply the
categorical approach (contrary to Supreme Court and Eleventh Circuit precedent);
(ii) found that the use, attempted use, or threatened use of physical force was an
essential statutory element of federal kidnapping (contrary to Eleventh Circuit

26

USCA11 Case: 19-10308

Date Filed: 01/13/2021

Page: 27 of 27

27a

precedent); or (iii) otherwise erred in applying, or failing to apply, existing law
(contrary to the presumption that district courts know and follow the law).
V
Under de novo review, I conclude that the legal landscape in 1998 tips the
scales in favor of Mr. Williams. And given the preponderance of evidence standard,
that is all that is required. I would reverse and remand for Mr. Williams to be
resentenced without the ACCA enhancement.

27

APPENDIX B

28a

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 1 of 10

FILED

2018 Nov-26 AM 09:30
U.S. DISTRICT COURT
N.D. OF ALABAMA

UNITED STATES DISTRICT COURT
NORTHERN DISTRICT OF ALABAMA
SOUTHERN DIVISION
JEROME WILLIAMS,
Movant/Defendant,
vs.

UNITED STATES OF AMERICA,
Respondent.

)
)
)
)
)
)
)
)
)
)

Case Numbers:
2:16-cv-8101-CLS
(2:97-cr-0377-CLS-JHE)

MEMORANDUM OPINION
This action is before the court on the motion filed by Jerome Williams to
vacate, set aside, or correct sentence, pursuant to 28 U.S.C. §2255.1

Upon

consideration of the motion and the parties’ briefs,2 this court concludes that
Williams’s motion is due to be denied.
I. PROCEDURAL BACKGROUND
On February 20, 1998, Williams pleaded guilty to one count of bank robbery,
in violation of 18 U.S.C. § 2113(a)&(d) (Count One); one count of carrying or using

1

See doc. no. 1 in case no. 2:16-cv-8101-CLS.

See the following documents in case no. 2:16-cv-8101-CLS: 6 (Response to Williams’s §
2255 Motion); 7 (Reply to the Government’s Response to Mr. Williams’s § 2255 Motion); 9
(Supplemental Authority to Mr. Williams’s § 2255 Motion); 10 (Second Notice of Supplemental
Authority to Mr. Williams’s § 2255 Motion); 12 (Response to Williams’s Second Notice of
Supplemental Authority); 13 (Reply to Government’s Response to Mr. Williams’s Second Notice
of Supplemental Authority).
2

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 2 of 10

29a

a firearm in relation to a crime of violence, in violation of 18 U.S.C. § 924(c)(1)
(Count Two); and, one count of possession of a firearm by a convicted felon, in
violation of 18 U.S.C. § 922(g)(1) (Count Four).3 He was sentenced on May 21,
1998, to imprisonment for a term of 300 months (25 years) on Count One, 327
months (27 years and 3 months) on Count Four (to be served concurrently with the
sentence on Count One), and 60 months (5 years) on Count Two (to be served
consecutively to the sentence on Counts One and Four).4
Generally speaking, a violation of 18 U.S.C. § 922(g)(1) (Count Four) is
punishable by a maximum prison sentence of 120 months, or 10 years. 18 U.S.C. §
924(a)(2). Here, however, Williams’s sentence was enhanced under the Armed
Career Criminal Act (“ACCA”), 18 U.S.C. § 924(e), which provides, in pertinent part,
that:
In the case of a person who violates section 922(g) of this title and
has three previous convictions by any court referred to in section
922(g)(1) of this title for a violent felony or a serious drug offense, or
both, committed on occasions different from one another, such person
shall be fined under this title and imprisoned not less than fifteen years,
and, notwithstanding any other provision of law, the court shall not
suspend the sentence of, or grant a probationary sentence to, such person
with respect to the conviction under section 922(g).
18 U.S.C.A. § 924(e)(1) (emphasis supplied).

3

See doc. no. 40 in case no. 2:97-cr-0377-CLS-JHE.

4

See doc. no. 55 in case no. 2:97-cr-0377-CLS-JHE (Judgment).
2

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 3 of 10

30a

The convictions and sentences this court imposed upon Williams were affirmed
by the Eleventh Circuit on direct appeal in 1999.5 Williams has filed two previous
motions to vacate, set aside, or correct his sentence — one in 2005 and one in 2010.
Both motions were either denied or dismissed by this court.6 Williams, therefore,
would have been unable to file a third § 2255 motion without first receiving
permission from the Eleventh Circuit Court of Appeals. See 28 U.S.C. § 2255(h) (“A
second or successive motion must be certified as provided in section 2244 by a panel
of the appropriate court of appeals . . . .”); 28 U.S.C. § 2244. The Eleventh Circuit
granted him that permission on June 27, 2016, because it found that the Supreme
Court’s decision in Johnson v. United States, 576 U.S. ___, 135 S. Ct. 2551 (2015),
constituted “a new rule of constitutional law, made retroactive to cases on collateral
review by the Supreme Court, that was previously unavailable.” 28 U.S.C. §
2255(h)(2).7
II. DISCUSSION
At the time of Williams’s sentencing, the ACCA defined the term “violent
felony” as:

5

See doc. no. 66 in case no. 2:97-cr-0377-CLS-JHE (Eleventh Circuit Mandate).

6

See case no. 2:05-cv-8075-CLS-RRA; case no. 2:10-cv-8012-CLS-RRA.

See doc. no. 2 in case no. 2:16-cv-8101-CLS (Notice of Appellate Authorization to Consider
a Second Motion Under 28 U.S.C. § 2255).
7

3

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 4 of 10

31a

“any crime punishable by imprisonment for a term exceeding one
year . . . that —
(i) has as an element the use, attempted use, or threatened
use of physical force against the person of another; or
(ii) is burglary, arson, or extortion, involves use of
explosives, or otherwise involves conduct that presents a serious
potential risk of physical injury to another.”
Johnson, 135 S. Ct. at 2555-56 (quoting 18 U.S.C. § 924(e)(2)(B)) (emphasis in
Johnson). Subdivision (i) is commonly referred to as the “elements clause,” and the
first part of subdivision (ii) is referred to as the “enumerated offenses clause.” The
italicized language in subdivision (ii) is referred to as the “residual clause” of the
statute, and it was struck down by the Supreme Court’s Johnson decision as being
unconstitutionally vague. See id. at 2557, 2563.8
The enhancement of Williams’s federal sentence was based upon his previous
convictions for: (1) federal kidnapping in 1977; (2) Kentucky first degree robbery,
also in 1977; and, (3) Georgia armed robbery in 1983.9 He does not challenge the
sentencing court’s reliance upon the robbery convictions to enhance the sentence, but
he asserts that the kidnapping conviction was not a proper enhancer because it could

The Supreme Court declared its holding in Johnson retroactive to cases on collateral review
in Welch v. United States, – U.S. – , 136 S. Ct. 1257, 1265 (2016).
8

9

See doc. no. 54 in case no. 2:97-cr-0377-CLS-JHE, at 9-13 (Presentence Investigation

Report).
4

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 5 of 10

32a

only have been considered under the residual clause of the ACCA, which is no longer
valid after Johnson.
The Eleventh Circuit recently clarified the appropriate framework for
determining whether a sentence was enhanced under the now-invalid residual clause:
To prove a Johnson claim, a movant must establish that his
sentence enhancement “turn[ed] on the validity of the residual clause.”
In other words, he must show that the clause actually adversely affected
the sentence he received. In re Thomas, 823 F.3d 1345, 1349 (11th Cir.
2016). Only if the movant would not have been sentenced as an armed
career criminal absent the existence of the residual clause is there a
Johnson violation. That will be the case only (1) if the sentencing court
relied solely on the residual clause, as opposed to also or solely relying
on either the enumerated offenses clause or elements clause (neither of
which were called into question by Johnson) to qualify a prior
conviction as a violent felony, and (2) if there were not at least three
other prior convictions that could have qualified under either of those
two clauses as a violent felony, or as a serious drug offense.
Critical to our decision on the merits issue in this case is the
burden of proof and persuasion. The Government contends that a §
2255 movant bears the burden of proving that his sentencing
enhancement was imposed because the sentencing court used the
residual clause. Beeman argues that if it is merely possible that the court
relied on that clause to enhance the sentence, then he has met his burden.
We conclude, and hold, that, like any other § 2255 movant, a Johnson
§ 2255 claimant must prove his claim. To prove a Johnson claim, the
movant must show that — more likely than not — it was use of the
residual clause that led to the sentencing court’s enhancement of his
sentence. If it is just as likely that the sentencing court relied on the
elements or enumerated offenses clause, solely or as an alternative basis
for the enhancement, then the movant has failed to show that his
enhancement was due to use of the residual clause.
Beeman, 871 F.3d at 1221-22 (footnotes omitted, alteration in original).
5

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 6 of 10

33a

The Eleventh Circuit provided some examples of evidence from the sentencing
record that might indicate whether the district court relied on the residual clause:
Some sentencing records may contain direct evidence: comments or
findings by the sentencing judge indicating that the residual clause was
relied on and was essential to application of the ACCA in that case. Nor
do we mean to suggest that there will not sometimes be sufficient
circumstantial evidence to show the specific basis of the enhancement.
For example, there could be statements in the PSR, which were not
objected to, recommending that the enumerated clause and the elements
clause did not apply to the prior conviction in question and did not apply
to other prior convictions that could have served to justify application
of the ACCA. Or the sentencing record may contain concessions by the
prosecutor that those two other clauses do not apply to the conviction in
question or others. And there could be other circumstances on which a
movant can rely; the above are but a few examples. Each case must be
judged on its own facts.
Beeman, 871 F.3d at 1224 n.4.
Here, Williams and the United States agree that there is nothing in the record
of the sentencing proceedings to indicate the clause under which Williams’s prior
kidnapping conviction qualified for ACCA enhancement.10 Instead, Williams argues
that the state of the law at the time of his sentencing makes clear that his sentence
could only have been enhanced pursuant to the residual clause. See id. at 1224 n.5
See doc. no. 10 in case no. 2:16-cv-8101-CLS (Second Notice of Supplemental Authority
to Mr. Williams’s 28 U.S.C. § 2255 Motion), at 3 (“A focus on the law at the time of sentencing is
particularly appropriate in Mr. Williams’s case, because his Presentence Investigation Report
(“PSR”) did not identify any specific clause of the ACCA in classifying the kidnapping conviction
as a violent felony.”); doc. no. 12 in case no. 2:16-cv-8101-CLS (Response to Williams’s Second
Notice of Supplemental Authority), at 3 (“Williams acknowledges that nothing in the record reflects
this Court’s reliance in 1998 on the residual clause to find that his prior kidnapping conviction
qualified as a violent felony.”).
10

6

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 7 of 10

34a

(“[I]f the law was clear at the time of sentencing that only the residual clause would
authorize a finding that the prior conviction was a violent felony, that circumstance
would strongly point to a sentencing per the residual clause.”) (alteration supplied).
When Williams was sentenced in 1998, the Eleventh Circuit had not
commented on whether a federal kidnapping offense should be considered for ACCA
enhancement under the elements clause, the residual clause, or both.11 The United
States asserts that the most applicable law at the time was the Eleventh Circuit’s
decision in United States v. Salemi, 26 F.3d 1084 (11th Cir. 1994). There, Salemi
was found guilty on a federal kidnapping charge, and the issue on appeal was the
length of his sentence. Id. at 1086. Salemi was eligible for a downward departure
under the Sentencing Guidelines as a result of his diminished mental capacity, but
only if his offense was “non-violent.” Id. (citing U.S.S.G. § 5K2.13). The Eleventh
Circuit held that:
Kidnapping is a violent crime. Section 4B1.2, U.S.S.G., defines
crime of violence as any offense that “has as an element the use,
attempted use, or threatened use of physical force against the person of
another.” Application Note 2 of U.S.S.G. § 4B1.2 includes kidnapping
in its listing of crimes that are crimes of violence. The Commission
recognized that kidnapping inherently involves the threat of violence.

The court notes this is the case for most offenses. Before Johnson, there was no need for
sentencing courts to specify the clause under which a sentence was enhanced, and most courts did
not do so.
11

7

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 8 of 10

35a

Salemi, 26 F.3d at 1087 (emphasis supplied). The Salemi decision is very persuasive,
because, even though it concerned a “crime of violence” under the Sentencing
Guidelines, the definition of that term is identical to the definition of a “violent
felony” under the elements clause of the ACCA. See 18 U.S.C. § 924(e)(2)(B)(i)
(“[T]he term ‘violent felony’ means any crime punishable by imprisonment for a term
exceeding one year . . . that – (i) has as an element the use, attempted use, or
threatened use of physical force against the person of another.”) (alteration and
ellipsis supplied). See also United States v. Patino, 962 F.2d 263, 267 (2d Cir. 1992)
(alteration supplied) (“That the crime of kidnapping involves the threatened use of
physical force against a person and is thus a crime of violence under [the elements
clause of 18 U.S.C. § 924(c), which provides for a sentencing enhancement for using
a firearm during a crime of violence,] cannot be questioned.”).
Williams acknowledges that Salemi “makes the conclusion [of which clause
supports an ACCA enhancement based upon a prior kidnapping charge] more
‘unclear’ than it otherwise would be.”12 He also acknowledges that “[c]lassifications
of crimes of violence under the Guidelines often are practically conclusive as to
classifications of violent felonies under the ACCA.”13 The court is not persuaded by

Doc. no. 13 in case no. 2:16-cv-8101-CLS (Reply to Government’s Response to Mr.
Williams’s Second Notice of Supplemental Authority), at 6.
12

13

Id. (alteration supplied).
8

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 9 of 10

36a

Williams’s argument that the commentary to the Sentencing Guidelines renders the
classification of federal kidnapping as a “crime of violence” irrelevant to the inquiry
under the ACCA.
Williams asserts, on the other hand, that other courts’ decisions indicated, prior
to 1998, that kidnapping could only be considered a crime of violence under the
residual clause of the ACCA. See United States v. Williams, 110 F.3d 50, 52-53 (9th
Cir. 1997) (holding that a prior Oregon kidnapping charge was a “crime of violence”
under the residual clause of the Sentencing Guidelines); United States v. Kaplansky,
42 F.3d 320, 323 (6th Cir. 1994) (holding that a prior Ohio kidnapping qualified for
ACCA enhancement under the residual clause, where the government did not argue
that it qualified under the elements clause); United States v. Phelps, 17 F.3d 1334,
1342 (10th Cir. 1994) (finding that a prior Missouri kidnapping offense qualified for
ACCA enhancement under the residual clause).
In summary, there is persuasive authority supporting both the United States’s
and Williams’s arguments. Thus, the best that can be said is that it was unclear at the
time of Williams’s 1998 sentencing whether his prior conviction for federal
kidnapping would have been considered under the elements clause of the ACCA, the
residual clause, or possibly both. Williams has thus failed to satisfy his burden under
Johnson of proving that, more likely than not, the sentencing court relied upon the

9

Case 2:16-cv-08101-CLS Document 15 Filed 11/26/18 Page 10 of 10

37a

residual clause to enhance his sentence. See Beeman, 871 F.3d at 1225 (citations
omitted) (“Where, as here, the evidence does not clearly explain what happened . . .
the party with the burden loses.”).
III. CONCLUSION
Because Williams had three prior convictions that qualified for enhancement
as violent felonies under the elements clause (i.e., federal kidnapping, Kentucky first
degree robbery, and Georgia armed robbery), his sentence was properly enhanced
under the ACCA, and his § 2255 motion is due to be denied. An appropriate order
will be entered contemporaneously herewith.
DONE this 26th day of November, 2018.

______________________________
United States District Judge

10

